U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                            Inspection of the FBI’s
                           Security Risk Assessment
                          Program for Individuals
                             Requesting Access to
                         Biological Agents and Toxins

                                      I-2005-003
                                      March 2005
                                EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General conducted an
inspection of the Federal Bureau of Investigation’s (FBI) Security Risk
Assessment (SRA) Program, which was established under the Public Health
Security and Bioterrorism Preparedness and Response Act of 2002
(Bioterrorism Act), Pub. Law No. 107-188. The SRA Program is part of an
interagency effort to regulate the possession and use of dangerous biological
agents and toxins, such as anthrax and the Ebola virus.

       Under the Bioterrorism Act, a laboratory may not provide an individual
with access to dangerous agents or toxins unless that individual has been
approved by the Secretary of either the Departments of Health and Human
Services (HHS) or Agriculture (USDA), based on an SRA. The SRA is conducted
by the FBI, which searches electronic databases and other sources of
information to determine whether the individual meets one or more of the
criteria found in the USA Patriot Act (Pub. Law No. 107-56) and the
Bioterrorism Act that would render the individual a “restricted person”
ineligible for access to the biological agents and toxins controlled under the
Bioterrorism Act.

      We initiated the inspection in response to concerns about a backlog at
the FBI of pending SRA applications submitted by researchers seeking access
to controlled agents and toxins. To conduct this review, we examined SRA-
related legislation and regulations, interviewed officials involved in the FBI’s
SRA program, analyzed FBI monthly productivity reports showing the number
and status of SRA applications in their Bioterrorism Database, and reviewed
the case files of appeals of SRA decisions.

RESULTS IN BRIEF

      Our inspection showed that the FBI had 3,855 SRA applications pending
in November 2003, but by June 2004, had reduced that number to 401. The
FBI maintained a stable average monthly caseload of approximately 339
pending SRA applications through December 2004 and was routinely
processing the applications in 45 days or less.

       We also found that the FBI has instituted effective management controls
that enabled it to identify and correct program vulnerabilities in a timely
manner. The FBI set productivity goals for processing SRA applications and
was closely monitoring its progress toward meeting those goals. It also
established an appeals process for individuals who want to challenge
“restricted persons” designations. In addition, to resolve interagency issues


U.S. Department of Justice                                                         i
Office of the Inspector General
Evaluation and Inspections Division
affecting the SRA Program, the FBI participates in an interagency working
group that includes HHS, USDA, and other federal agencies concerned with
regulating the possession and use of biological agents and toxins. We conclude
that the FBI is effectively managing its SRA responsibilities under the
Bioterrorism Act.




U.S. Department of Justice                                                  ii
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS



INTRODUCTION ................................................................................. 1

   Background ................................................................................... 1

   Scope and Methodology ................................................................. 7


INSPECTION RESULTS ....................................................................... 8

   BRAG Eliminated Early Backlog of SRAS ........................................ 8

       BRAG Encountered Processing Problems during Phase-In Period ..... 8
       BRAG Reduced Large Caseload of Pending SRA Applications .......... 12

   Management Controls and Minimum Standards for
   Access Eligibility ......................................................................... 16

       BRAG Has Effective Management Controls ..................................... 16
       SRA Program Provides a Clear Standard for Access ........................ 19


CONCLUSION ................................................................................... 22


APPENDIX I: LIST OF SELECT AGENTS AND TOXINS ........................ 23




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                         INTRODUCTION


      This report presents the results of an Office of the Inspector General
(OIG) inspection of the Security Risk Assessment (SRA) program that the
Federal Bureau of Investigation (FBI) established under the Public Health
Security and Bioterrorism Preparedness and Response Act of 2002
(Bioterrorism Act), Pub. Law No. 107-188. The OIG initiated the inspection in
response to concerns about a backlog at the FBI of pending SRA applications
submitted by researchers seeking access to dangerous biological agents and
toxins controlled under the Bioterrorism Act. The objectives of our inspection
were to:

    •   Determine whether the FBI had a backlog of pending SRA applications
        and, if so, why; and

    •   Identify any program vulnerabilities that needed to be corrected.

We initiated our review on September 20, 2004, and analyzed productivity data
through January 10, 2005.

BACKGROUND

      Congress drafted the Bioterrorism Act shortly after anthrax was released
through the U.S. mail in the fall of 2001, killing 5 people, making 17 others ill,
and widely disrupting business and government activities at an estimated cost
of more than $5 billion.1 The President signed the Bioterroism Act in June
2002. Among other provisions, the Act controls access to select biological
agents and toxins that can pose severe threats to the health of humans,
animals, and plants – substances that include anthrax and the Ebola virus.2

      In passing the Bioterrorism Act, Congress set three goals for the
provisions pertaining to select agents and toxins:

   1) Ensuring prompt reporting to the federal government of possession of
      select agents and toxins by individuals and research facilities;

   2) Increasing security over select agents and toxins (including controlling
      access and screening personnel); and

        1Regulatory Impact Analysis, 42 C.F.R. Part 73: Select Biological Agents and Toxins
Interim Final Rule; CDC, HHS, December 9, 2002, pp. 2 and 8-9.

        2   See Appendix I for a complete list of select agents and toxins.


U.S. Department of Justice                                                                1
Office of the Inspector General
Evaluation and Inspections Division
   3) Establishing a comprehensive and detailed national database of the
      location and characterization of select agents and toxins and the
      identities of those in possession of them.

       Title II of the Act provides that these select biological agents and toxins
may be accessed only by people who have demonstrated a legitimate need to
handle these substances and who have been cleared based on an SRA. The
SRAs are intended to keep individuals who have engaged in criminal or
terrorist activities from gaining access to dangerous materials. Civil and
criminal penalties also can be imposed on individuals and laboratory facilities
for allowing anyone to possess, use, or transfer a select agent or toxin if that
person has not registered and had their access approved by the government.3

       Violations of the Bioterrorism Act can result in substantial fines or
imprisonment for up to five years, or both. In addition, violations can result in
a civil money penalty of up to $250,000 for individuals and $500,000 for a
laboratory. As discussed below, the Bioterrorism Act and the USA Patriot Act
(Pub. Law No. 107-56) provide specific criteria for determining who may
possess and use select agents and toxins.

       The SRA program is part of an interagency effort by the Departments of
Health and Human Services (HHS), Agriculture (USDA), and Justice
(Department) to regulate the possession and use of biological agents and toxins
in the United States. Title II of the Bioterrorism Act provides for SRAs and
states that a laboratory may not provide an individual with access to a select
agent or toxin unless the individual has been approved by the Secretary of
either HHS or USDA, based on an SRA conducted by the Attorney General, who
has delegated that responsibility to the FBI.

      Most of the responsibility for carrying out the Bioterrorism Act’s
provisions rests with the HHS’s Centers for Disease Control and Prevention
(CDC), the USDA’s Animal and Plant Health Inspection Service (APHIS), and
the FBI’s Criminal Justice Information Services (CJIS) Division. CDC and
APHIS are responsible for regulating the possession of biological agents and
toxins that pose a severe threat to public health and safety and for enforcing
safety standards and procedures for the possession, use, and transfer of these
agents. They also have authority to grant or deny access to select agents and
toxins based on the results of an SRA conducted by the FBI’s CJIS Division.
       3
         Select Biological Agents and Toxins, 42 C.F.R. Part 73, effective February 7, 2003;
Possession, Use, and Transfer of Biological Toxins, 7 C.F.R. Part 331; and Agricultural
Bioterrorism Protection Act of 2002; Possession, Use, and Transfer of Biological Agents, and
Toxins, 9 C.F.R. Part 121. “Access” is defined as the ability of an individual to gain entry into a
space where a select agent or toxin is used or stored.


U.S. Department of Justice                                                                     2
Office of the Inspector General
Evaluation and Inspections Division
        In December 2002, CDC and APHIS issued interim regulations that
established requirements for possessing and using select agents and toxins,
including requirements for obtaining an SRA. In general, the regulations apply
“to academic institutions and biomedical centers; commercial manufacturing
facilities (the pharmaceutical industry); federal, state, and local laboratories,
including clinical and diagnostic laboratories; and research facilities.”4 These
laboratories use select agents and toxins in research critical for biodefense,
public health, and the battle against infectious diseases. Laboratories affected
by the regulations are required to identify a responsible official to ensure
compliance with the Bioterrorism Act. For each laboratory, SRAs must be
obtained by the laboratory owner, responsible official, alternate responsible
official, and researchers who need access to select agents and toxins.5

       Laboratories must ensure that they meet all work safety requirements for
select agents and toxins, keep records of select agents and toxins transferred to
and from their facilities, and ensure that only authorized personnel have
access to select agents and toxins. According to federal regulations, CDC and
APHIS certify laboratories before allowing them to use, possess, or transfer
select agents and toxins. Certification is valid for three years.

      On March 25, 2003, the FBI Director assigned responsibility for
conducting SRAs to the CJIS Division. The CJIS Division receives applications
submitted by individuals requesting access to specific agents or toxins, and
uses electronic databases and other sources of information to conduct SRAs of
those individuals. The CJIS Division carries out its responsibilities for
conducting SRAs through its Bioterrorism Risk Assessment Group (BRAG),
which was established in April 2003 at the CJIS Division facility in Clarksburg,
West Virginia.

       BRAG employees conduct SRAs on all persons applying for access to
select agents and toxins. In conducting SRAs, BRAG employees search
electronic databases and conduct fingerprint checks to determine whether an
individual is eligible for access based on specific criteria described below.
BRAG is responsible for reporting the results of its SRAs to CDC and APHIS.
BRAG also maintains a database that includes the names and locations of
persons granted access to select agents and toxins. BRAG employees refer to
this database as the Bioterrorism Database.

       4  In this report, the term “laboratory” is used when referring collectively to all entities
subject to select agent and toxin regulations.

       5 Diagnostic laboratories or laboratories licensed under the Clinical Laboratory
Improvement Act that conduct diagnostic testing, verification, or proficiency testing are exempt
from the regulation.


U.S. Department of Justice                                                                        3
Office of the Inspector General
Evaluation and Inspections Division
       To begin the SRA process, BRAG employees
                                                                         USA Patriot Act Criteria for
review application packages, which must include FBI                        “Restricted Persons”
Form FD-961 and two sets of legible fingerprint
cards.6 An FBI Form FD-961 includes basic                               BRAG must restrict access if
identifying information such as name, date and place                    an individual is or has been:
of birth, Social Security number, address, and place
                                                                        ● Under indictment for a
of employment. It also includes applicants’ answers                       crime punishable for a term
to questions concerning criminal indictments and                          exceeding one year;
convictions, fugitive status, controlled substance
abuse, alien status, mental health history, and                         ● Convicted of a crime
                                                                          punishable by
whether they have been dishonorably discharged                            imprisonment for a term
from the U.S. Armed Services.                                             exceeding one year;

       BRAG employees enter the applicants’                             ● A fugitive from justice;
information into the Bioterrorism Database and                          ● An unlawful user of any
check a series of other national databases that                           controlled substance;
contain criminal, mental health, immigration,
                                                                        ● An alien illegally or
military, intelligence, counterterrorism, and                             unlawfully in the
fingerprint records. BRAG’s objectives are to                             United States;
determine whether applicants meet one or more
                                                                        ● Adjudicated as a mental
criteria that would render them ineligible for access                     defective or has been
to select agents and toxins.                                              committed to any mental
                                                                          institution;
       BRAG has limited discretion in determining
                                                                        ● An alien (other than an
eligibility because the criteria for possessing, using,                   alien lawfully admitted for
or transferring select agents, which are outlined in                      permanent residence) who
the USA Patriot Act and the Bioterrorism Act, are                         is a national of a
specific. Along with the eight criteria found in the                      country. . . that has
USA Patriot Act (listed in the box on this page),                         repeatedly provided support
                                                                          for acts of international
under the Bioterrorism Act BRAG must designate                            terrorism; or
applicants as “restricted persons” if they are
reasonably suspected by a federal law enforcement or                    ● Discharged from the Armed
intelligence agency of:                                                   Services of the United
                                                                          States under dishonorable
                                                                          conditions.
    1) Committing a crime set forth in section
       2332(g)(5) of title 18 of the U.S. Code;7


       6
          Originally, the instructions for filing Form FD-961 directed applicants to mail their
application packages to CDC or APHIS officials, who then forwarded them to the CJIS Division.
Since August 25, 2004, the instructions tell applicants to send their applications directly to the
CJIS Division.

       7   Title 18 U.S.C. § 2332(g)(5) deals with the “federal crime of terrorism.”


U.S. Department of Justice                                                                           4
Office of the Inspector General
Evaluation and Inspections Division
    2) Knowing involvement with an organization that engages in domestic or
       international terrorism (as defined in 18 U.S.C. 2331) or with any other
       organization that engages in intentional crimes of violence;8 or

    3) Being an agent of a foreign power (as defined in 50 U.S.C. 1801).9

Although there are 11 specific criteria defined by law, BRAG combined the 2
criteria that deal with involvement with organizations engaging in or supporting
domestic or international crimes of violence or terrorism in their procedural
guidance. Consequently, BRAG’s concept of operations refers to only ten
criteria.

      Once BRAG determines an individual’s eligibility for access, it forwards a
recommendation on access to CDC or APHIS, which makes the final decision
on whether the individual will be allowed access to select agents and toxins.
CDC or APHIS reports their access decision to the individual applicant. Unless
CDC or APHIS terminates approval sooner, an SRA is valid for five years.
However, BRAG re-runs fingerprint checks every three years. Chart 1 provides
a diagram of BRAG’s SRA process.




       8   Title 18 U.S.C. § 2331 defines several terms dealing with international terrorism.

        9 Title 50 U.S.C. § 1801 defines a number of terms such as “foreign power,” “agent of

foreign power,” “International terrorism,” and “sabotage.”

U.S. Department of Justice                                                                      5
Office of the Inspector General
Evaluation and Inspections Division
                                           Chart 1:
                                      BRAG’s SRA Process




        Source: BRAG approved OIG modification of BRAG flow chart.



Legend

       CCDI          Consular Consolidated Database Indices
       CI            Counterintelligence
       CJIS          Criminal Justice Information Services Division
       CT            Counterterrorism
       FTTTF         Foreign Terrorist Tracking Task Force
       IAFIS         Integrated Automated Fingerprint Identification System
       ICE           Immigration and Customs Enforcement
       III           Interstate Identification Index
       NCIC          National Crime Information Center
       SRA           Security Risk Assessment
       VA            Department of Veterans Affairs
       WMD           Weapons of Mass Destruction




U.S. Department of Justice                                                    6
Office of the Inspector General
Evaluation and Inspections Division
SCOPE AND METHODOLOGY

       We initiated this inspection on September 20, 2004, in response to
concerns expressed by the HHS OIG about a large number of pending SRAs in
BRAG’s Bioterrorism Database. We concluded our data collection and analysis
on January 10, 2005. During our review, we analyzed SRA-related legislation
and regulations to determine program responsibilities and requirements, and
we interviewed BRAG’s program managers and personnel security specialists to
assess the SRA process and to identify any processing issues that might result
in a large number of pending SRA applications. We also compared background
checks done for SRA purposes with other types of background checks
conducted by federal agencies. In addition, we talked with OIG officials at HHS
and USDA and officials of the CDC and APHIS about BRAG’s SRA program.

       We also assessed the consistency of data in the Bioterrorism Database by
comparing monthly productivity reports from April 2003 to January 2005, and
we analyzed BRAG’s work to reconcile discrepancies BRAG found in the CDC
and APHIS applicant databases. By March 2004 BRAG had determined that
the CDC and APHIS databases contained over 1,300 duplicate records when
compared to the Bioterrorism database. CDC and APHIS created a new
database record each time individuals who had already applied for access
submitted additional SRA applications because of job or name changes. BRAG
identified the duplications and significantly reconciled the CDC and APHIS
databases with its Bioterrorism Database. We also reviewed all case files of
appeals of SRA decisions.

       Determining whether restricted persons appropriately were being denied
access to select agents and toxins is the responsibility of HHS and USDA, and
therefore we did not conduct that type of review. Rather, we reviewed BRAG’s
role in conducting SRAs, which are intended to detect individuals who should
not have access to select agents and toxins.




U.S. Department of Justice                                                  7
Office of the Inspector General
Evaluation and Inspections Division
                                 INSPECTION RESULTS


BRAG ELIMINATED EARLY BACKLOG OF SRAS

     BRAG had a large number of pending SRA applications in late
     2003, but reduced the number significantly during the first six
     months of 2004.10 In November 2003, BRAG had 3,855 pending
     SRA applications, which included a backlog of 628 SRA
     applications that had been pending for more than 45 days.11
     BRAG’s large caseload of pending SRA applications was caused by
     processing issues that were resolved between November 2003 and
     June 2004. By June 2004, BRAG had reduced its number of
     pending SRA applications from 3,855 to 401 and eliminated its
     SRA application backlog. Since June 2004, BRAG has maintained
     a stable monthly caseload of approximately 339 pending SRA
     applications, which it is processing routinely in 45 days or less.12


BRAG Encountered Processing Problems During Phase-In Period

      The interim federal regulations CDC and APHIS issued in December
2002 to implement the Bioterrorism Act established a six-month phase-in
period to allow laboratories and individuals time to achieve full compliance
with the new regulations for possessing, using, and transferring select agents
and toxins, including obtaining SRAs. The phase-in period was designed to
minimize the disruption that the regulations might cause for research and
educational projects involving select agents and toxins that were under way.

       The phase-in period for processing SRA applications ran from April 11,
2003, to November 12, 2003. All SRA applications were due to BRAG on
April 11, 2003, and BRAG started processing SRA applications on April 14,
2003. The regulations gave laboratories and individuals until November 12,

       10
         According to BRAG, its pending workload includes all SRA applications that have
been entered into the Bioterrorism Database, but have not been finalized through
a determination of eligibility.
       11
          According to BRAG, a backlog occurs when it takes BRAG more than 45 days to
determine an applicant’s eligibility for access once BRAG has received a complete SRA
application, which includes all requested data on the FBI FD-961 and two legible fingerprint
cards.

       12 Forty-five days is the average processing time for BRAG to complete an SRA

application. BRAG determined the average processing time by calculating the mean number of
days BRAG took to complete pending SRAs during a three-month period.

U.S. Department of Justice                                                                 8
Office of the Inspector General
Evaluation and Inspections Division
2003, to achieve full compliance with the law, including obtaining SRAs for all
of their employees who needed access. After November 12, 2003, individuals
not in full compliance with the SRA requirements would not be eligible for
access to special agents and toxins until they met the requirements.

        BRAG officials said that during the six-month phase-in period, they:

    •   Received only 11 percent of all SRA applications by the April 11, 2003,
        SRA submission deadline;

    •   Received a total of 3,948 SRA applications from CDC and APHIS with
        missing or unusable data;

    •   Experienced a staffing change from 18 to 9 personnel that reduced
        BRAG’s capacity for conducting SRAs from 1,200 to 500 each month
        just prior to the regulatory deadline for completing all SRAs; and

    •   Experienced problems obtaining some of the information needed to
        determine the eligibility of individuals with criminal histories and mental
        health issues.

Because of these problems BRAG accrued a large number of SRA cases for
which it could not make final determinations of eligibility. As discussed below,
these problems were addressed either by BRAG or through the joint actions of
BRAG, CDC, APHIS, and the officials and individuals applying for access to
select agents and toxins.

      BRAG Received Only 11 Percent of All Applications by the
April 11, 2003, Deadline. Although the regulations required that all
applications were due to BRAG by April 11, 2003, BRAG received 89 percent of
the applications after that date. As shown in Table 1, on April 11 BRAG had
received only 1,108 (11 percent) of the 9,720 applications that it would
eventually receive by the November 12, 2003, regulatory deadline for
completing all SRAs.




U.S. Department of Justice                                                      9
Office of the Inspector General
Evaluation and Inspections Division
                             Table 1:
     Number of SRA Applications Received by Month During the
                      2003 Phase-In Period
                April 11                                 1,108
                May 31                                   1,601
                June 30                                  2,285
                July 31                                  1,790
                August 31                                  703
                September 30                               645
                October 31                                 727
                November 12                                861
                Total                                    9,720

   Source: Bioterrorism Workload Statistics - Internal, BRAG.

       BRAG Received Several Thousand Incomplete SRA Applications.
During the six-month phase-in period, BRAG received a large number of SRA
applications for which it could not make a final eligibility determination
because of missing data or illegible fingerprint cards. A complete SRA
application package includes: 1) a completed FBI Form FD-961 that contains
basic information, such as name and address; and 2) two legible fingerprint
cards. As stated previously, BRAG received 9,720 SRA applications during the
phase-in period, between April 11 and November 12, 2003. A total of 3,948
(41 percent) of those applications were missing data such as an FBI
Form FD-961 or the required two fingerprint cards. Sometimes an application
included an FBI Form FD-961 that was missing information or the prints on
the fingerprint cards were not legible. In these cases, BRAG officials said that
they could not complete the SRAs until they received the missing data, which
sometimes took months.

       The volume of incomplete applications received during the phase-in
period also made it appear that BRAG had a large backlog of SRA cases and
that it was not processing SRA applications in a timely manner. In fact, BRAG
employees could not begin to conduct an SRA until the applicant submitted
complete information. BRAG officials said that they sent thousands of letters
to laboratory officials requesting the missing information prior to the
November 12, 2003, deadline, but did not receive all of the data in time to
complete the SRAs by the deadline.




U.S. Department of Justice                                                    10
Office of the Inspector General
Evaluation and Inspections Division
       BRAG Processing Capacity Was Significantly Reduced by a Change
in Staffing. In April 2003, the FBI temporarily assigned employees to start
SRAs while it began selecting a permanent staff for BRAG. However, BRAG’s
ability to meet the regulatory deadline of November 12, 2003, was significantly
hampered by a staffing change that occurred at the end of October 2003.

       Before October 31, 2003, the FBI had staffed BRAG with 18 temporary
personnel security specialists from the CJIS Division’s National Instant
Criminal Background Check System. On October 31, 2003, the FBI replaced
BRAG’s temporary staff with a permanent staff of nine employees that included
one unit manager, one supervisor, and seven personnel security specialists. As
a result of the staffing change, BRAG’s capability for conducting SRAs dropped
from approximately 1,200 to 500 per month just prior to BRAG’s November 12,
2003, deadline for completing all SRAs. The drop in capacity resulted from the
reduction in the number of staff as well as the transition from an experienced
to an inexperienced staff that required training.

        BRAG’s Need to Obtain Pertinent Information from External Sources
Increased Processing Times. BRAG officials said that they had trouble
obtaining some of the information they needed to determine the access
eligibility of individuals with criminal histories and mental health issues.
According to BRAG, it can take from two weeks to six months to obtain all the
information it needs to make a determination of eligibility for access on one
SRA application. BRAG’s processing times can be significantly affected by:
1) the availability of automated state and local criminal history records,
2) difficulty obtaining mental health histories, and 3) BRAG’s reliance on other
agencies to conduct certain database searches.

      For example, BRAG often needs to acquire copies of court records of
dispositions in criminal cases to make its eligibility determinations. BRAG also
must verify references to state and local court records, many of which are not
automated and, therefore, only accessible through manual research.13
Consequently, BRAG has to obtain copies of court documents and this process
can extend the time it takes to conduct an SRA by several months.

      In addition, processing times can increase when BRAG has to obtain
mental health histories. SRA applicants indicate on Form FD-961 whether
they have ever been adjudicated as a mental defective or committed to a mental

       13  As reported previously by the OIG, the lack of automated court records has an
impact on other Department programs as well. The OIG report, Review of the Bureau of
Alcohol, Tobacco, Firearms and Explosives’ Enforcement of Brady Act Violations Identified
Through the National Instant Criminal Background Check System, Report Number I-2004-006,
July 2004, describes the same requirement to obtain court records, but at the expense of
utilizing Alcohol, Tobacco, Firearms and Explosives’ agent resources for this task.


U.S. Department of Justice                                                              11
Office of the Inspector General
Evaluation and Inspections Division
institution. If an applicant answers “yes,” BRAG employees must conduct
research to determine whether the individual was voluntarily or involuntarily
committed to a mental institution. According to BRAG officials, this research is
time consuming, and some institutions are reluctant to share this information.

       BRAG also depends on other agencies to complete portions of the SRA
database searches. To obtain visa information on alien resident and work
status, BRAG downloads applicant information from its Bioterrorism Database
and supplies it to the Department of Homeland Security’s Immigration and
Customs Enforcement agency. BRAG also provides applicant information to
the FBI’s Foreign Terrorist Tracking Task Force to determine whether the
applicant is a known terrorist. At times, these agencies are not able to search
their databases based on the information BRAG provides. When that happens,
BRAG must contact the applicant directly to request additional information,
such as birth certificates or alien registration numbers. BRAG employees said
complexities such as these can add weeks or months to the SRA application
processing time.

BRAG Reduced Large Caseload of Pending SRA Applications

      Chart 2 shows that BRAG accrued a large caseload of SRA applications
during the phase-in period, with pending applications peaking in August 2003
at 5,809. BRAG had reduced its caseload to 3,855 by November 12, 2003.




U.S. Department of Justice                                                   12
Office of the Inspector General
Evaluation and Inspections Division
                                       Chart 2:
                      BRAG Caseload of Pending SRA Applications
            6500
                         April 30, 2003 to November 12, 2003

            6000                                              5806
                                                    5625
            5500                                                      5276

            5000
                                          4402
            4500
            4000                                                                        3855
                                                                               3657
            3500
            3000                2706
            2500
            2000
            1500
                      1105
            1000
              500
                0
                     Apr-03    May-03    Jun-03     Jul-03   Aug-03   Sep-03   Oct-03   Nov-03



     Source: Bioterrorism Workload Statistics - Internal, BRAG.


       BRAG employees said that they kept CDC and APHIS officials fully
informed of their processing issues and the need for CDC and APHIS to
encourage laboratory owners and responsible officials to submit the data
missing from SRA applications before the deadline. BRAG officials said they
also informed CDC and APHIS that – because of BRAG’s heavy caseload and
processing times that averaged 45 days – even if all missing SRA application
data were submitted immediately, the outstanding applications could not be
processed by the November 12, 2003, deadline. On November 3, 2003, CDC
and APHIS amended federal regulations, in part, to provide more time for
BRAG to complete the pending SRA applications that it accrued during the
phase-in period.

      CDC and APHIS Amended Interim Final Rules to Allow Grants of
Provisional Access. On November 3, 2003, CDC and APHIS officials amended
the interim final rules on select agents and toxins. The amendments allowed
CDC and APHIS to provide provisional grants of access to individuals who had
submitted complete application packages to BRAG and met all other federal


U.S. Department of Justice                                                                       13
Office of the Inspector General
Evaluation and Inspections Division
requirements by November 12, 2003, but who had not yet obtained an SRA.
The amendments did not extend the deadline for complying with SRA
requirements, but they did allow for the continued operation of laboratory
facilities vital to the public interest. At the same time, the amendments
emphasized the need for applicants to provide missing application data. The
amendments also gave BRAG more time to finalize individual SRAs for
individuals who had submitted all of the required information by the deadline.

       As of the November 12, 2003, deadline, BRAG had received 9,720
individual applications. Of those, 61 percent (5,865) had been finalized by the
issuance of an eligibility determination (5,265) or by the cancellation of an SRA
request by an applicant or responsible official (600). This left 3,855 pending
applications. Of that number, BRAG had received 2,947 applications that
included all necessary data and 908 applications that were missing data or
legible fingerprint cards. Because the 908 individuals with incomplete
applications had missed the deadline for submitting all required information,
they were not eligible for access and, by regulation, could not work with select
agents and toxins.

      On November 13, 2003, BRAG reported that it expected to be able to
complete 500 SRAs each month and therefore would process the remaining
3,855 pending applications in seven months, or by June 2004. Chart 3 shows
the progress that BRAG made in reducing the number of pending applications.
BRAG reduced the number of pending SRA applications to 401 as of June 2004
and has since maintained a relatively stable average monthly caseload of 339
pending SRA applications.




U.S. Department of Justice                                                    14
Office of the Inspector General
Evaluation and Inspections Division
                                          Chart 3:
                         BRAG's Caseload of Pending SRA Applications
                          November 12, 2003 to December 31, 2004
   4500

   4000   3855

   3500

   3000           2652
   2500                  2240
                                1923
   2000
                                        1566
   1500
                                                975
   1000
                                                       495       401                 380
    500                                                                 341   349          255    342     305

      0
           Nov-   Dec-   Jan-    Feb-   Mar-    Apr-   May-      Jun- Jul-04 Aug-   Sep-   Oct-   Nov-    Dec-
            03     03     04      04     04      04     04        04          04     04     04     04      04

   Source: Bioterrorism Workload Statistics - Internal, BRAG.


      BRAG Significantly Reduced Its Pending Caseload. Table 2 shows
that BRAG had received a total of 13,287 SRA applications and conducted
12,982 SRAs as of December 2004. From November 12, 2003, to December 31,
2004, BRAG reduced its pending SRA application caseload from 3,855 to 305
SRA applications and its incomplete SRA applications from 908 to 40.

                                         Table 2:
                             BRAG Productivity Achievements
                         Before and After the Regulatory Deadline
                           November 12,          December 31,            September 19,        December 31,
                                  2003                  2003                     2004                2004

Bioterrorism                    Regulatory                                           OIG                 Current
Database                         Deadline                                      Inspection                 Status
Completed a                         5,865                       7,392             12,045                 12,982
Pending b                           3,855                       2,652                357                    305
  With complete
  information b                         2,947                   2,190                  316                   265
  With incomplete
  information b                           908                 462                       41                   40
Total SRA                               9,720              10,044                   12,402               13,287
Applications
Source: Bioterrorism Workload Statistics - Internal, BRAG.
a Includes all records entered that show a decision in the database (cancelled, restricted, or unrestricted).
b Includes all records with no decision in the database (those with complete and incomplete applications).



U.S. Department of Justice                                                                                   15
Office of the Inspector General
Evaluation and Inspections Division
MANAGEMENT CONTROLS AND MINIMUM STANDARDS
FOR ACCESS ELIGIBILITY

       Our review found that BRAG has effective management controls
       that have resulted in the timely identification and correction of
       several program vulnerabilities. BRAG monitors its processing
       capabilities and productivity using its Bioterrorism Database.
       In addition, BRAG has established an appeals process that, so
       far, has resulted in BRAG overturning 6 of its 20 “restricted
       persons” designations. The CJIS Division participates in an
       interagency working group, which includes HHS, USDA, the
       Department of Defense (DOD), Customs and Border Protection,
       and other organizations, to resolve interagency issues affecting
       the SRA Program. Since the Bioterrorism Act was implemented,
       the SRA process has provided a reasonably quick minimum
       standard (usually 45 days or less) for security checks on all
       persons seeking access to select agents.


BRAG Has Effective Management Controls

       Since its creation in April 2003, BRAG has:

    1) Established procedures for conducting background investigations and
       completing SRAs,
    2) Set up a Bioterrorism Database for tracking SRAs, and
    3) Hired a permanent staff to fulfill BRAG’s SRA responsibilities.

As discussed below, BRAG’s accomplishments are, in part, a product of strong
management controls that have led to the early identification and timely
correction of program vulnerabilities.

       BRAG Closely Monitors the SRA Process and Caseload. BRAG
monitors its processing capabilities in an effort to maintain a high level of
employee productivity. Among other control measures, BRAG has instituted
several productivity measures and goals, and routinely monitors its progress
toward meeting those goals. For example, BRAG established a 45-day goal for
finalizing SRA applications, and supervisors closely monitor the time that
individual requests remain in the database before a final eligibility
determination is made.

    While BRAG still occasionally receives SRA applications that are missing
required information or contain illegible fingerprint cards, those applications
are now clearly identified in the Bioterrorism Database. Consequently, those

U.S. Department of Justice                                                    16
Office of the Inspector General
Evaluation and Inspections Division
applications no longer appear as part of the backlog of cases pending more
than 45 days as they did during the phase-in period.

     BRAG has also improved the SRA process by revising the instructions on
the FBI’s Form FD-961. Since August 25, 2004, the instructions on
Form FD-961 instruct applicants to send their applications directly to the CJIS
Division instead of to CDC or APHIS as previously instructed. BRAG reported
that this revision has helped to reduce processing times.

    Of the total 12,982 SRAs it completed by December 2004, BRAG:

           •   Granted eligibility for unrestricted access to 11,830 applicants,
           •   Canceled 1,080 individual requests that were withdrawn, and
           •   Designated 72 applicants as “restricted persons.”

As shown in Table 3, most ineligible applicants had been designated “restricted
persons” because of felony convictions (54) or an illegal or unlawful alien
status (7). Some of the 72 designations were based on more than one criterion.
Twenty of the 72 appealed BRAG’s eligibility restrictions.


                                          Table 3:
                              Restrictions Applied by Criteria

                Restriction Category                           Restrictions Applied        a


       Felony conviction                                                    53
       Fugitive from justice                                                4
       Illegal/unlawful alien                                               7
       Adjudicated mental defective                                         3
       Controlled substance abuser                                          3
       Under indictment                                                     2
       Agent of foreign power                                               1
       Dishonorable discharge                                               1
       Terrorist related                                                     0

       Source: Bioterrorism Workload Statistics Division, BRAG, January 11, 2005.
       a The table shows total restrictions by criteria (74); some of the 72 individuals found to be
       ineligible for access were restricted based on more than one criterion.


       BRAG Established an Appeals Process. BRAG established an appeals
process that, as of January 2005, had addressed 20 appeals of individual
“restricted person” designations. BRAG sustained 14 of the 20 appeals and
overturned 6 to grant the appellant eligibility for “unrestricted” access. BRAG


U.S. Department of Justice                                                                             17
Office of the Inspector General
Evaluation and Inspections Division
does not limit the number of times that an individual can appeal a restriction.
In at least one case, BRAG overturned a restriction that it had previously
sustained on appeal.

       SRA applicants with past felony convictions can successfully appeal a
“restricted” designation by getting the appropriate state or local government to
expunge their criminal record from local, state, and national databases and
other data repositories. Generally, the burden of proof in an appeal rests with
the appellant.

      If CDC or APHIS officials disagree with a BRAG employee’s eligibility
determination, they also can initiate an appeal. This provision of the appeals
process, which has never been used, would work for an agency as it does for an
individual applicant – the burden of proof would rest with the agency appealing
BRAG’s determination.

       The CJIS Division Resolves Interagency Issues Through the Select
Biological Agents and Toxins Working Group. The CJIS Division routinely
participates in a working group that includes representatives from CDC,
APHIS, DOD, Customs and Border Protection, and other organizations to
resolve interagency issues. This group, called the Select Biological Agents and
Toxins Working Group (Working Group), was established by the Bioterrorism
Act to consider policy issues and render policy decisions related to security,
regulations, and preparing for and preventing bioterrorism and other public
health emergencies.

      For example, the Working Group considered a request made by the
Deputy Under Secretary of Defense for Counterintelligence and Security to the
CJIS Division seeking to exempt DOD military and civilian personnel and
contractors from SRA requirements. In October 2003, the Deputy Under
Secretary wrote to the CJIS Division of her concern that 400 DOD employees
would not be able to obtain an SRA by the regulatory deadline. She stated that
the SRA process was similar enough to background investigations DOD
conducted before granting access to classified information that the SRAs were
redundant for individuals already possessing security clearances. Therefore,
she wrote, “we take the position that those 400 individuals should be exempt
from the risk assessment requirement by virtue of their having been granted
security clearances based on favorably adjudicated background investigations.”

       The CJIS Division, as part of the Working Group, denied DOD’s request
for exemptions, citing a legal determination that the Bioterrorism Act does not
allow such exemptions even for individuals with security clearances.




U.S. Department of Justice                                                    18
Office of the Inspector General
Evaluation and Inspections Division
SRA Program Provides a Clear Standard for Access

       Because of the issues DOD raised at the Working Group and other
concerns expressed during our inspection regarding the possible redundancy of
SRA background investigations for individuals with security clearances, we
compared the scope of the SRA background investigation with that of other
types of background investigations. We found that the SRA background
investigation includes searches of databases that are not searched routinely
during other types of background investigations, including those conducted for
national security clearances. We also found that the SRA process provides a
clear standard for conducting background investigations to determine eligibility
for access to select agents and toxins.

       The Bioterrorism Act allows for several exemptions from the SRA
requirements. For example, if a laboratory is owned by a local, state, or federal
agency, the head of the agency that “owns” the facility is exempt from the
requirement of obtaining an SRA (42 C.F.R. 73.8(a)). Also, an owner of an
accredited academic institution is not required to obtain an SRA. However, all
responsible officials, alternate responsible officials, and individuals with access
to select agents and toxins are required to obtain an SRA, regardless of
whether they work for a government agency or an accredited academic
institution. In addition, the Bioterrorism Act does not exempt federal
employees who have a national security clearance from obtaining an SRA.

       While the types of background investigations conducted to determine
eligibility for access to Top Secret national security information and for a public
trust position in the federal government include reviews of some of the same
information sources as an SRA, there are differences. All three types of
investigations include, for instance, a national agency check, which consists of
a review of the:

    •   Investigative and criminal history files of the FBI, including the National
        Crime Information Center and fingerprint search;
    •   Office of Personnel Management’s Security/Suitability Investigations
        Index; and
    •   DOD’s Defense Clearance and Investigations Index.

       The Minimum Background Investigation (MBI) required for a public trust
position includes a national agency check, plus written inquiries and credit
record searches, a face-to-face personal interview between the investigator and
the subject, and telephone inquiries to selected employers. The Single Scope
Background Investigation (SSBI) required for access to Top Secret information
is a governmentwide investigation that covers the past seven years of an


U.S. Department of Justice                                                       19
Office of the Inspector General
Evaluation and Inspections Division
individual’s activities. It includes verification of citizenship and date and place
of birth, as well as national records checks on the individual’s spouse or
cohabitant, and interviews with selected references and former spouses.

       In contrast, BRAG employees conducting an SRA search databases
that contain information to determine whether the applicant meets any 1
of the 11 criteria that would result in a restriction from access to select
agents and toxins. Not all of these databases are searched routinely as
part of an MBI or SSBI. For example, BRAG routinely searches the
Foreign Terrorist Tracking Task Force database for information to
determine whether an applicant is a known terrorist or has associated
with known terrorists. This database is not searched as part of an MBI
or SSBI. BRAG also searches the Immigration and Customs
Enforcement database for information on whether an applicant has been
determined to be an illegal or unlawful alien.

       Table 4 on the next page lists other databases routinely searched
for SRA investigations – but not for MBI or SSBI investigations – such as
the FBI Indices via the Automated Case Support system, which contains
FBI Headquarters’ classified databases; the Department of Veterans
Affairs’ database for mental health information; and the Department of
State’s Terrorist Watch List and Consular Consolidated Database
Indices. According to BRAG officials, BRAG is continuing to refine the
SRA process and expand its electronic searches as new databases
emerge, especially those that containing counterterrorism information.

       Before passage of the Bioterrorism Act, less than half the nation’s
laboratories conducted background checks on employees with access to
select agents and toxins, and the practice of conducting background
checks varied greatly among the different types of laboratories. For
instance, while approximately 80 percent of the laboratories owned by
research institutes and commercial facilities conducted background
checks on their employees with access to select agents and toxins, less
than 20 percent of state and university laboratories conducted such
checks.

      When background investigations were conducted by laboratories,
they usually included a basic criminal background check, but not all of
the other elements of an SRA background investigation. Since the
Bioterrorism Act was implemented, the SRA process has provided a
reasonably quick minimum standard (usually 45 days or less) for
security checks on all persons seeking access to select agents. The SRA
process also contributes to the creation of a database that contains the
names of all persons who are using or have used select agents, which
agents they have used, and where they are working.


U.S. Department of Justice                                                       20
Office of the Inspector General
Evaluation and Inspections Division
                                        Table 4:
                      Comparative Analysis of Two Levels of Background
                         Investigations and the SRA Process
                                                               Types of Background Investigations
                                                                                            MBI for a
                                                                           SSBI for a
                                                                                           moderate-
                                                                            special-
 Information Sources                                           SRA                         risk public
                                                                           sensitive
                                                                                              trust
                                                                           position a
                                                                                            position b
 National Crime Information Center                               X               X             X
 Interstate Identification Index                                 X               X             X
 FBI Indices                                                     X
 Fingerprint Identification                                      X               X             X
 Foreign Terrorist Tracking Task Force                           X
 Immigration and Customs Enforcement – check
                                                                                 X
 for citizenship only
 Immigration and Customs Enforcement – check
 for citizenship, naturalization status, immigration
                                                                 X
 status, and Student and Exchange Visitor
 Information System status
 Defense Clearance Investigation Index                                           X
 Department of Defense Dishonorable Discharge
                                                                                 X             X
 Records
 Department of Veterans Affairs mental defective
                                                                 X
 records
 Office of Personnel Management’s
 Security/Suitability Investigations Index (previous                             X
 background investigation history)
 State Department Terrorist Watch List and the
 Consular Consolidated Database Indices for visa                 X
 information
 Court records verification (if necessary)     c                 X               X
 Local law enforcement checks based on previous
                                                                                 X             X
 residences
 Credit report                                                                   X             X
 Education verification                                                          X             X
 Subject interview                                                               X             X
 Employment verification                                                         X             X
 Residence verification                                                          X             X
 Spouse interview                                                                X
 Personal and professional references                                            X             X

 a   Information sources such as credit reports are reviewed for a 3- to 10-year period.
 b Information sources such as credit reports are reviewed for a 5- to 7-year period.
 c Court records are obtained, if an adjudication decision resulted in “restricted.”




U.S. Department of Justice                                                                         21
Office of the Inspector General
Evaluation and Inspections Division
                                      CONCLUSION


        We found that BRAG had reduced its caseload of pending SRA
applications from a high of 3,855 in November 2003 to 401 as of June 2004.
Since June 2004, BRAG has maintained a stable monthly caseload of
approximately 339 pending SRA applications, which it is processing routinely
in 45 days or less. BRAG has also instituted management controls that enable
it to identify and correct program vulnerabilities in a timely manner. As a
result, we believe that BRAG is effectively managing its SRA responsibilities
under the Bioterrorism Act.




U.S. Department of Justice                                                22
Office of the Inspector General
Evaluation and Inspections Division
                                    APPENDIX I:
                         LIST OF SELECT AGENTS AND TOXINS


 I. HHS non-overlap select agents and       II. USDA high consequence
    toxins                                     livestock pathogens and toxins
   - Crimean-Congo haemorrhagic fever          (non-overlap agents and toxins)
     virus                                   -   Akabane virus
   - Coccidioides posadasii                  -   African swine fever virus
   - Ebola viruses                           -   African horse sickness virus
   - Cercopithecine herpesvirus 1            -   Avian influenza virus (highly
     (Herpes B virus)                            pathogenic)
   - Lassa fever virus                       -   Blue tongue virus (Exotic)
   - Marburg virus                           -   Bovine spongiform
   - Monkeypox virus                             encephalopathy agent
   - Rickettsia prowazekii                   -   Camel pox virus
   - Rickettsia rickettsii                   -   Classical swine fever virus
     South American haemorrhagic fever       -   Cowdria ruminantium
     viruses                                     (Heartwater)
        - Junin                              -   Foot and mouth disease virus
        - Machupo                            -   Goat pox virus
        - Sabia                              -   Lumpy skin disease virus
        - Flexal                             -   Japanese encephalitis virus
        - Guanarito                          -   Malignant catarrhal fever virus
     Tick-borne encephalitis complex             (Exotic)
     (flavi) viruses                         -   Menangle virus
        - Central European tick-borne        -   Mycoplasma capricoluml
        encephalitis                         -   M.F38/M. mycoides capri
        - Far Eastern tick-borne             -   Mycoplasma mycoides mycoides
        encephalitis                         -   Newcastle disease virus (VVND)
        - Russian spring and summer          -   Peste Des Petits Ruminants virus
        encephalitis                         -   Rinderpest virus
        - Kyasanur forest disease            -   Sheep pox virus
        - Omsk hemorrhagic fever             -   Swine vesicular disease virus
   - Variola major virus (Smallpox virus)    -   Vesicular stomatitis virus (Exotic)
   - Variola minor virus (Alastrim)
   - Yersinia pestis
   - Abrin
   - Conotoxins
   - Diacetoxyscirpenol
   - Ricin
   - Saxitoxin
   - Shiga-like ribosome inactivating
     proteins
   - Tetrodotoxin


U.S. Department of Justice                                                        23
Office of the Inspector General
Evaluation and Inspections Division
 III. High consequence livestock            IV. Listed plant pathogens
      pathogens and toxins/select             -   Liberobacter africanus
      agents (overlap agents)                 -   Liberobacter asiaticus
    -   Bacillus anthracis                    -   Peronosclerospora
    -   Brucella abortus                          philippinensis
    -   Brucella melitensis                   -   Phakopsora pachyrhizi
    -   Brucella suis                         -   Plum Pox Potyvirus
    -   Burkholderia mallei (formerly         -   Ralstonia solanacearum race 3,
        Pseudomonas mallei)                       biovar 2
    -   Burkholderia pseudomallei             -   Schlerophthora rayssiae var
        (formerly Pseudomonas                     zeae
        pseudomallel)                         -   Synchytrium endobioticum
    -   Botulinum neurotoxin producing        -   Xanthomonas oryzae
        species of Clostridium                -   Xylella fastidiosa (citrus
    -   Coccidioides immitis                      variegated chlorosis strain)
    -   Coxiella burnetii
    -   Eastern equine encephalitis virus
    -   Hendra virus
    -   Francisella tularensis
    -   Nipah Virus
    -   Rift Valley fever virus
    -   Venezuelan equine encephalitis
        virus
    -   Botulinum neurotoxin
    -   Clostridium perfringens epsilon
        toxin
    -   Shigatoxin
    -   Staphylococcal enterotoxin
    -   T -2 toxin




U.S. Department of Justice                                                    24
Office of the Inspector General
Evaluation and Inspections Division
